DOEF 1325.B
(06-93)
United States Government                                                              Department of Energy


memorandum
    DATE:        Septerriber 7, 2006                       Audit Report Number: OAS-L-06-19
R.F.1'! .. YTO
A-rl"N OF:       IG-32 (A06CH002)

suorncr:         Audit of the Department's Hydrogen Projects

        To:      Assistant Secretaiy for Energy Efficiency and Renewable Energy

                 INTRODUCTION AND 013JECTIVE

                 The Department of Energy's (Department) Otllce of"~n~rgy Efficiency and
                 Renewable Energy h3s several programs which are designed to enable the transition
                 to the future hydrogen economy. The Hyri.rogerl, Fuel Cells & Infrastructure
                 Technologies Program is responsible for research activities involving ft.tel cells,
                 hydrogen production, storage. and delivery. The overall vision of these programs is to
                 integrate clean, abundant, re1iable, and affordable hydrogen energy and fuel cell
                 power into all sectors of the economy throughout the country.

                 To accomp1ish this mission, the Department awards grants. cooperative agreements.
                 and contracts. Both the Hydrogen Future Act of 1996 and the Energy Policy Act of
                 2005 require the Department's Hydrogen Programs to m:e competition in the project
                 selection process, and to use cost sharing agreements with the private sector when
                 appropriate. In addition, the Department directly funds work at its national
                 laboratories. The objective of our audit was to determine whether the Department
                 was effectively administering hydrogen technology projects.

                 CONC.LUSIONS AND OBSERVATIONS

                 Nothing came to ow- attention to suggest that the Department was not properly
                 administering the hydrogen technoJogy projects. We found that the Department
                 gcncralJy awarded grants and cooperative agreements based upon a competitive
                 solicitation followed by a peer review to determine the merit of the proposed projects.
                 Also, the work funded·at a national laboratory, while non-competitively awarded,
                 appeared to be within the laboratory's mission. Likewise, we found that the
                 Department required the appropriate levels of cost sharing from the awardees.
                 However, we noted that the Department had not always conducted effective cost
                 reviews during the performance period of the agreements.

                 The Golden Field Otlice, which is responsible for administering the agreements, had
                 not effectively conducted incurred cost reviews to determine the allowability of costs
                 reported and to verify cost share totals. We sampled costs reported for six
                 judgmentally selected awardccs and found that the Golden Field Office had not
determined that three of the six had incorrectly reported 1he amount of costs shared.
In one case, the awardee included cash received from another Federal soiirce as a cost
share contribution and included unallowable meal costs in its reported costs. 111
another instance, the awardee overstated its cost share, but correct~ the error in a
subsequent report. Finally, a third awardee understated its cost share total, but had yet
to correct the mistake. These instances were identified in the supporting documents
supplied to us by the awardees and could have been easily found had a cost review
been performed.

During the course of our audit, we learned that the Golden Field Office was
implementing new procedures to review submitted costs on a more frequent basis.
The new procedures will require higher levels of cost reviews, including desk reviews
and audits for projects above certain dollar.thresholds. However, since the procedures
were still being implemented, we were unable to test their effectiveness.
Accordingly, we suggest that the Golden Field Office ensure that the procedures
adequately address the control weaknesses noted in. tQis audit and that a review be
conducted at an appropriate interval after impleme4tdtion to evaluate the effectiveness
of these procedures.                        .        l

SCOPE AND METHODOLOGY

The audit was performed from April through August 2006, at the Golden Field Office
in Golden, Colorado; Argonne NationaJ Laboratory, in Argonne, Tilinois; and the
Office of Energy Efficiency and Renewable Energy in Washington, DC. The audit
scope included projects funded by the Department's Hydrogen Program in Fiscal
Years 2004 through 2006.

To accomplish our audit objective, we reviewed:

   •   Applicable laws governing the competition and cost share requirements of the
       Department's Hydrogen Program;

   •   Prior audits and reviews re1ated to the Hydrogen Program and financial
       assistance agreements;

   •   Performance measures established for the Hydrogen Program;

   •   Strategic plan~_ such as the National Hydrogen Energy Road.map, budgets, and
       publications; and,

   •   Project selection process to determine whether projects funded have been
       selected using full and open competition.

Additional1y, to meet our objectives, we:

   •   Interviewed program. officiaJs to detennine the rationale for funding decisions;


                                     2
  . •     Selected and reviewed 30 projects awarded as grants, cooperative ~greements,
          and contracts by the Golden Field Office;

    •     Selected and reviewed 10 projects funded at Argonne National Laboratory;
          and,

    •     Selected and validated claimed costs and cost share totals submitted by 6
          awardees.

The audit was performed in accordance with generally accepted Govemmeut auditing
standards for performance audits and included tests of internal controls and •
compliance with laws and regulations to the extent necessary to satisfy the audit
objective. Because our review was limited, it would not necessarily have disclosed all
internal control deficiencies that may have existed at the time of our audit. We
evaluated perfonnance mea'5urcs established under the Government Performance and
Results Acl of 1993 and found measures related to hyfrbgen, fuel cells, and
infrastructure technologies. When appropriate, we ~e:rformed limited test work of
data reliability during our audit and determined that we could rely on the computer-
processed data.

An exit conference was held with representatives of the Office of Energy Efficiency
and Renewable Energy on August 25, 2006.

We appreciate the cooperation of your staff during our review. Because no formal
recommendations are being made in this report, a formal response is not required .



                                                         .,,((. 1-.-::P
                                            rcdrick G. Pieper, Director
                                           Energy, Science and Environmental
                                             Audits Division
                                           Office of Inspector General

cc: Under Secretary for Science
        Under Secretary for Energy
        Chief of Staff
        Team Leader, Audit Liaison Team, CF~l.2
        Audit Liaison, Golden Pield Office
        Audit Liaison, Chicago Office




                                       3
